No. 19-1062

Supreme Court of the United States

CJ CheilJedang Corp., et al.,
Petitioners,
v.
International Trade Commission, et al.,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar of this
Court representing a party on whose behalf service is made, and I served three copies of
the Brief of the R Street Institute as Amicus Curiae in Support of the
Petition in the above-identified case, upon all parties required to be served. Service was
performed by U.S. priority mail to counsel of record listed on the following page.

Respectfully submitted,
Dated: March 26, 2020
Charles Duan
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org

LIST OF PARTIES SERVED
Douglas Harry Hallward-Driemeier
Ropes & Gray, LLP
2099 Pennsylvania Avenue, NW
Washington, DC 20006-6807
202-508-4776
Douglas.Hallward-Driemeier@ropesgray.com
Counsel for Petitioners CJ CheilJedang Corp., et al.
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents International Trade Commission, et al.
Charles Edmund Lipsey
Finnegan, Henderson, Farabow, Garrett & Dunner, LLP
Two Freedom Square
11955 Freedom Drive
Reston, VA 20190-5675
571-203-2700
charles.lipsey@finnegan.com
Counsel for Respondents Ajinomoto Co., Inc., Ajinomoto Animal Nutrition North America, Inc.

